Report No. D-2011-038                       February 8, 2011




    American Recovery and Reinvestment Act Project to
    Design and Build a Child Development Center at Hill
                   Air Force Base, Utah
                                                                               February 8, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	American Recovery and Reinvestment Act Project to Design and Build
          a Child Development Center at Hill Air Force Base, Utah (Report
          No. D-2011-038)

The DoD Office of Inspector General (DoD OIG) is performing audits of DoD’s implementation
of Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” February 17, 2009
(Recovery Act). We selected one Air Force project to review at Hill Air Force Base (Hill AFB),
Utah: project KRSM083003, to design and build a child development center (CDC).

Our objective in selecting this project was to determine whether:

    	 it was adequately planned to ensure the appropriate use of Recovery Act funds 

       (Planning); 


    	 funds were awarded and distributed in a prompt, fair, and reasonable manner (Funding);
       and

    	 its contract was competed and awarded with full transparency and contained required
       Recovery Act Federal Acquisition Regulation clauses (Initial Project Execution).

We determined that project KRSM083003 was justified and met Recovery Act goals regarding
accountability and transparency. Hill AFB and the U.S. Army Corps of Engineers, Sacramento
District (USACE Sacramento) personnel properly planned, funded, and contracted for the project
in accordance with Recovery Act and Office of Management and Budget guidance.

PLANNING

We reviewed the DD 1391, “Military Construction Project Data,” and supporting cost
documentation for project KRSM083003 and determined that it was properly planned. The
DD 1391 adequately explained the project justification, requirements, capacity shortfall, and
impact of designing and building a CDC at Hill AFB. The Base Civil Engineers at Hill AFB
used Unified Facilities Criteria 4-740-14, “Design: Child Development Centers,” August 2002,
to determine the CDC requirements, and stated that they used a parametric cost-estimating
system to prepare the cost estimates. The DD 1391, prepared by Hill AFB personnel on May 27,

                                                1

 
 
 
2008, estimated the project’s cost at $15 million. On July 22, 2009, USACE Sacramento 

personnel reviewed and certified a support service contractor-prepared independent Government

cost estimate of approximately $14.9 million. 


FUNDING 


The March 20, 2009, “DoD Expenditure Plan for the American Recovery and Reinvestment Act 

of 2009,” designated a list of Air Force MILCON projects, which included project 

KRSM083003. Project KRSM083003 was funded through appropriation code 57-3307, 

“Air Force Recovery, Military Construction,” for a total of $15 million.


On August 3, 2009, the Office of the Air Force Assistant Secretary (Air Force Financial 

Management and Comptroller), issued a Budget Authorization/Allocation document for 

$15 million to the USACE Commander to fund the Hill AFB CDC project. On August 19, 2009, 

USACE Sacramento personnel awarded a contract for approximately $10.2 million to design and

build the CDC. After deducting funds for design costs, contingencies, and administration, 

USACE Sacramento personnel returned approximately $3.8 million to USACE Headquarters on 

August 25, 2009. Office of the Air Force Civil Engineer personnel told us that they were 

planning to use those funds for additional Recovery Act Air Force MILCON projects.


INITIAL PROJECT EXECUTION 


We reviewed the presolicitation and award for Recovery Act Project KRSM083003 at Hill AFB 

and determined that USACE Sacramento contracting personnel properly solicited and awarded 

the contract.


On May 22, 2009, USACE Sacramento contracting personnel posted presolicitation notice 

W91238-09-R-0044 on the Federal Business Opportunities (FBO) Web site as a Small Business 

Set-Aside. The presolicitation notice language met the intent of Recovery Act project 

requirements, and the synopsis clearly explained the nature of the work. USACE Sacramento 

contracting personnel competitively solicited proposals and received eight. On August 19, 2009, 

USACE Sacramento contracting office personnel posted contract award W91238-09-C-0022 on 

the FBO Web site. The contract contained the required Recovery Act clauses. USACE 

Sacramento personnel awarded a firm-fixed-price contract to HHI Corporation of Farmington, 

Utah, a small business, for approximately $10.2 million. A USACE Sacramento contracting 

officer and Source Selection Authority Board members used three factors—experience and 

capability, past performance, and management approach—to evaluate and select the contractor. 

The contracting officer and members of the Source Selection Authority Board used a price 

analysis to evaluate the contractor’s price proposal and determined that it was fair and 

reasonable. This contract requirement was competitively solicited and eight proposals were 

received. 





                                               2

 
 
 
REVIEW OF HILL AFB AND USACE SACRAMENTO INTERNAL CONTROLS

Hill AFB and USACE Sacramento internal controls over the planning, funding, and contracting
of the construction of a CDC at Hill AFB were effective as they applied to the audit objectives.

AUDIT STANDARDS

We conducted this audit from July 2010 through January 2011 in accordance with generally
accepted government auditing standards. Generally accepted government auditing standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

AUDIT METHODOLOGY

We visited Hill AFB and USACE Sacramento to review the selected project. We interviewed
program personnel at Hill AFB and cost engineering and contracting personnel at USACE
Sacramento. At both locations, we reviewed requirements, contracting, and financial
documentation from September 1996 to December 2010. We used this supporting
documentation to determine whether contract solicitations and awards met OMB and DoD
Recovery Act guidance.

Before selecting DoD Recovery Act projects for audit, the DoD OIG Quantitative Methods and
Analysis Division analyzed all DoD agency-funded projects, locations, and contracting oversight
organizations, to assess the risk of waste, fraud, and abuse associated with each. We selected
most audit projects and locations using a modified Delphi technique, which allowed us to
quantify the risk based on expert auditor judgment, and other quantitatively developed risk
indicators. We used information collected from all projects to update and improve the risk
assessment model. Initially, we selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing results to
the total population because there were too many potential variables with unknown parameters at
the beginning of this analysis. The predictive analytic techniques employed provided a basis for
logical coverage not only of expended Recovery Act dollars but also of types of projects and
types of locations across the Military Services, Defense agencies, State National Guard units, and
public works projects managed by USACE.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. Specifically, we used posted notices on
the FBO Web site (http://www.fedbizopps.gov), the data reported in FPDS, EPLS, CCR, and
contract documentation from the Electronic Document Access System, posted from May 2009



                                                3

 
 
 
through June 2010. We tested contracting data accuracy and consistency by comparing the data
produced in the aforementioned systems. We concluded that the data were sufficiently reliable
for our audit purposes.

PRIOR AUDIT COVERAGE

The Govenuuent Accountability Office, the DoD Inspector General, and the Military
Departments have issued reports and memoranda discussing DoD projects funded by the
Recovery Act. You can access unrestricted reports at http://www.recovcr)l.gov/accountability.

We appreciate the cOUltesies extended to the slaff. Please direct questions to me at (703)
604-9201 (DSN 664-9201). If you desire, we v.':ill provide a formal bJiefing on the results.




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                                4

